                                              OFFICE OF LABOR-
                                              MANAGEMENT STANDARDS


Office of Inspector General—Office of Audit




                                              OLMS COULD DO MORE TO IMPROVE THE
                                              EFFECTIVENESS OF THE COMPLIANCE AUDIT
                                              PROGRAM




                                                                 Date Issued:   September 13, 2012
                                                              Report Number:      09-12-001-04-421
U.S. Department of Labor                                    September 2012
Office of Inspector General
Office of Audit
                                                            OLMS COULD DO MORE TO IMPROVE THE
                                                            EFFECTIVENESS OF THE COMPLIANCE AUDIT
BRIEFLY…                                                    PROGRAM
Highlights of Report Number 09-12-001-04-421, issued
to the Director, Office of Labor-Management Standards.      WHAT OIG FOUND
                                                            OLMS could do more to improve the CAP effectiveness
                                                            in verifying LMRDA compliance. Specifically, OLMS has
WHY READ THE REPORT                                         not: (1) fully evaluated the effectiveness of the CAP and
The Office of Labor-Management Standards’ (OLMS)            its impact on safeguarding union fund assets, (2)
mission is to administer provisions of the Labor-           demonstrated it was using the most effective strategies
Management Reporting and Disclosure Act of 1959, as         for selecting unions for audit, and (3) ensured that
amended (LMRDA), which primarily establishes                unions corrected financial control weaknesses that
standards for labor union democracy and financial           allowed recordkeeping violations.
integrity and requires reporting and public disclosure of
union reports. OLMS helps American workers by               The OLMS performance measurement process did not
providing union oversight to:                               evaluate the effectiveness of the CAP. The CAP
                                                            objective is to verify LMRDA compliance, and provide
    	   help eliminate or prevent improper or corrupt      compliance assistance to help unions meet statutory
         practices by labor unions and their officers and   requirements. However, OLMS’ performance measure
         representatives.                                   for the CAP measured the percentage of CAP audits
                                                            that identified a potential criminal violation. This did not
    	   identify serious violations of the LMRDA and       measure CAP outcomes.
         related acts covering Federal employee unions
         which interfere with democratic procedures         In addition, OLMS could not demonstrate it used the
         within labor organizations.                        most effective strategies to identify unions with the most
                                                            significant LMRDA violations. OLMS did not have a risk-
    	   help unions improve their organizational and       based mechanism to correlate CAP strategies for
         administrative effectiveness.                      selecting unions for audit with CAP outcomes to
                                                            determine which strategies disclosed the most
As part of the effort to help ensure union financial        significant LMRDA violations or were most effective in
integrity, OLMS conducts a compliance audit program         improving the safeguarding of union assets.
(CAP). OLMS designed compliance audits to verify
LMRDA or CSRA compliance, investigate potential             Finally, OLMS did not always ensure correction of
violations of the law, and provide compliance               financial control weaknesses that allowed union
assistance to help unions meet statutory requirements.      recordkeeping violations. While OLMS required
                                                            corrective action for violations in other areas, they did
WHY OIG CONDUCTED THE AUDIT                                 not follow up with unions to ensure they corrected
We conducted this audit to determine if OLMS had:           control weaknesses related to recordkeeping.
(1) evaluated the effectiveness of its CAP and its impact
on safeguarding union assets, (2) selected unions for       WHAT OIG RECOMMENDED
audit using the most effective strategies, and (3)          The OIG recommended: OLMS develop performance
ensured unions corrected violations of LMRDA.               measures that evaluate the effectiveness of the CAP in
                                                            safeguarding union assets by verifying LMRDA
READ THE FULL REPORT                                        compliance; implement a risk-based process that will
To view the report, including the scope, methodology,       define the most significant LMRDA violations and use
and full agency response, go to:                            strategies to direct OLMS CAP resources to unions with
http://www.oig.dol.gov/public/reports/oa/2012/09-12-        the most significant LMRDA violations; and develop a
001-04-421.pdf                                              process that documents unions correct financial
                                                            controls over recordkeeping.

                                                            OLMS did not agree that it should develop better
                                                            performance measures. OLMS also stated that it had
                                                            developed risk-based processes and were testing them.
                                                            Finally, OLMS did not believe it would be cost effective
                                                            to develop a process to document unions correct
                                                            financial controls over recordkeeping.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                 OLMS Compliance Audit Program
                                    Report No. 09-12-001-04-421
                                                               U.S. Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1
 

Objective 1 — Has OLMS evaluated the effectiveness of its CAP and its impact 

on safeguarding union assets? ................................................................................... 4
 
          Developing a measure that incorporates all outcomes will result in OLMS 

            better evaluating CAP effectiveness ............................................................... 4
 

          Finding 1 — OLMS Performance Measurement Process Did Not Evaluate 

             Overall CAP Effectiveness .............................................................................. 4
 

Objective 2 — Has OLMS selected unions for audit using the most effective 

strategies? ..................................................................................................................... 7
 
          Implementing a risk based process to identify effective strategies will 

             result in better selection of those unions with the most significant 

             LMRDA violations............................................................................................ 7
 

          Finding 2 — OLMS Does Not Have A Process to Identify Effective 

             Strategies For Selecting Those Unions With The Most Significant 

             LMRDA Violations ........................................................................................... 7
 

Objective 3 — Has OLMS ensured unions corrected violations of LMRDA?........... 9
 
          Developing a process to verify unions correct financial controls over 

            recordkeeping will result in improving the safeguarding of union assets......... 9
 

          Finding 3 — OLMS Does Not Have A Process That Verifies Unions 

             Correct Financial Controls Over Recordkeeping ........................................... 10
 

Recommendations ...................................................................................................... 11
 

Appendices 
          Appendix A Background ..................................................................................... 14
 
          Appendix B Objectives, Scope, Methodology, and Criteria ................................ 16
 
          Appendix C Acronyms and Abbreviations .......................................................... 20
 
          Appendix D OLMS Response to Draft Report .................................................... 22
 
          Appendix E Acknowledgements ......................................................................... 29
 




                                                                                         OLMS Compliance Audit Program
                                                                                            Report No. 09-12-001-04-421
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                 OLMS Compliance Audit Program
                                    Report No. 09-12-001-04-421
                                                 U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                       Office of Inspector General
                                               Washington, D.C. 20210




September 13, 2012

                           Assistant Inspector General’s Report



John Lund
Director, Office of Labor Management Standards
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210


The Office of Inspector General (OIG) conducted a performance audit of the
Department of Labor’s (DOL) Office of Labor Management Standards (OLMS)
Compliance Audit Program (CAP). OLMS administers and enforces provisions of the
Labor-Management Reporting and Disclosure Act of 1959 (LMRDA). OLMS also
administers provisions of the Civil Service Reform Act of 1978 (CSRA)1 relating to
standards of conduct for Federal employee organizations, which are comparable to
LMRDA requirements. These laws promote union democracy and financial responsibility
in private and public sector labor unions. In Fiscal Year (FY) 2011, OLMS received
$41.3 million to oversee about 25,000 national and local unions reporting receipts of
approximately $19 billion.

The CAP is part of OLMS’ oversight of union financial responsibility. Through the CAP,
OLMS conducts audits of unions covered by the LMRDA. OLMS designed the CAP to
detect embezzlements and other criminal and civil violations of the LMRDA. OLMS also
uses the CAP to provide compliance assistance to help unions meet statutory
requirements.

To determine if the CAP was effective in detecting embezzlements and other criminal
and civil violations of the LMRDA, OIG’s audit objectives were to answer the following
questions:

Has OLMS:

    1. Evaluated the effectiveness of its CAP and its impact on safeguarding union
       assets?
    2. Selected unions for audit using the most effective strategies?

1
 CSRA made most of LMRDA provisions applicable to Federal unions. Therefore, we will only refer to
LMRDA in the report.


                                                                             OLMS Compliance Audit Program
                                                   1                            Report No. 09-12-001-04-421
                                           U.S. Department of Labor – Office of Inspector General


   3. Ensured unions corrected violations of LMRDA?

Our audit covered compliance audits that OLMS closed from April 1, 2010, through
March 31, 2011. We reviewed and analyzed the LMRDA, CSRA, and applicable OLMS
regulations, policies, and procedures. In addition, we performed detailed testing on a
sample of 99 CAP audits out of a universe of 428. The 428 audits represented
$263,189,088 of union receipts. Each of these audits covered a separate local or
national union.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

RESULTS IN BRIEF

OLMS could do more to improve the CAP effectiveness in verifying LMRDA compliance.
Specifically, OLMS has not (1) fully evaluated the effectiveness of the CAP and its
impact on safeguarding union fund assets, (2) demonstrated it was using the most
effective strategies for selecting unions for audit, and (3) ensured that unions corrected
financial control weaknesses that allowed recordkeeping violations.

The OLMS performance measurement process did not evaluate the effectiveness of the
CAP. The CAP objective is to verify LMRDA compliance, and provide compliance
assistance to help unions meet statutory requirements as a means of safeguarding
union assets. OLMS’ performance measure for the CAP measured the percentage of
CAP audits that identified a potential criminal violation. This is not a measure of CAP
effectiveness because (1) it measures OLMS activity not program outcomes, and (2)
does not reflect any non-criminal activity of the CAP. Overall, it does not measure the
effectiveness of the CAP program in safeguarding union assets.

In addition, OLMS could not demonstrate it used the most effective strategies to identify
unions with the most significant LMRDA violations. OLMS did not have a risk-based
mechanism to correlate CAP strategies for selecting unions for audit with CAP
outcomes to determine which strategies disclosed the most significant LMRDA
violations or were most effective in improving the safeguarding of union assets. OLMS
has started to develop a mechanism that, according to OLMS, will enhance CAP
targeting to better select unions with the greatest likelihood of criminal violations.
However, OLMS has not yet determined how to use risk-based analysis to identify
which are the most significant violations and correlate strategies to these outcomes.
Without this mechanism in place, OLMS could not demonstrate it was using the most
effective risk-based strategies to identify unions with the most significant LMRDA
violations.



                                                               OLMS Compliance Audit Program
                                            2                     Report No. 09-12-001-04-421
                                           U.S. Department of Labor – Office of Inspector General


Finally, OLMS did not always ensure correction of financial control weaknesses that
allowed union recordkeeping violations. While OLMS required corrective action for
violations in other areas, such as bonding and financial reporting, they did not follow up
with unions to ensure they corrected control weaknesses related to recordkeeping to
prevent violations from reoccurring. Recordkeeping violations represent control
weaknesses that, left uncorrected, could put union funds at risk.

We recommended OLMS develop performance measures that evaluate the
effectiveness of the CAP in safeguarding union assets by verifying LMRDA compliance;
implement a risk-based process that will define the most significant LMRDA violations
and use strategies to direct OLMS CAP resources to unions with the most significant
LMRDA violations; and develop a process that documents unions correct financial
controls over recordkeeping.

OLMS RESPONSE

In response to the draft report, OLMS stated that it recognized that the measure being
used did not tell OLMS whether the CAP is changing behavior or increasing
compliance. However, OLMS disagreed with the recommendation to develop better
performance measures to evaluate the effectiveness of the CAP. OLMS stated it had
pursued creating an outcome measure to better measure CAP results but did not have
the resources to implement. Further, OLMS did not agree that its performance measure
should include non-criminal [civil] outcomes. OLMS said it recognizes its performance
measure did not measure civil violations of the LMRDA; however, OLMS stated this was
purposeful and that the measure shows the success of the CAP in its primary objective
of detecting embezzlement.

OLMS agreed, in part, with the recommendation to implement a risk-based process that
will define the most significant LMRDA violations and use strategies to direct OLMS
CAP resources to unions with the most significant LMRDA violations. OLMS agreed
that, at the time of the audit, it could not demonstrate it was using the most effective
risk-based strategies to identify unions with the most significant LMRDA violations.
However, OLMS disagreed that it failed to identify which LMRDA violations were the
most significant in terms of protecting union financial integrity. Finally, OLMS did not
dispute the finding that, at the time of the audit, OLMS did not have a process to
correlate CAP strategies for selecting unions for audit with CAP outcomes. However,
OLMS stated it has developed and is currently testing two such models.

Finally, OLMS disagreed with the finding to develop a process that verifies unions
correct financial controls over recordkeeping. OLMS said that, to be meaningful, such a
process requires OLMS to subsequently conduct on onsite review to physically verify
controls were in place and deficiencies remedied. OLMS concluded this would be an
imprudent use of its resources.

OLMS’ response is included in its entirety at Appendix D.



                                                               OLMS Compliance Audit Program
                                             3                    Report No. 09-12-001-04-421
                                           U.S. Department of Labor – Office of Inspector General


OIG CONCLUSION

We continue to believe OLMS should develop better performance measures for the
CAP program. While OLMS places heavy reliance on the fact that their percentage of
CAP cases that detect possible criminal violations has risen over the last several years
as an indication of success. However, it may well indicate that criminal activity is
becoming more widespread. This ambiguity contributes to it being a poor outcome
measure overall.

Further, the OLMS Handbook states that OLMS designed CAP to verify LMRDA
compliance, and provide compliance assistance to help unions meet statutory
requirements. OLMS confirmed this in its response to our draft report. Given these CAP
program objectives, we believe the current performance measure is incomplete. We
agree that detecting embezzlement is important; however, we disagree that OLMS’
current measure shows the success of its CAP. It only measures the percentage of
compliance audits that results in a criminal case being opened while ignoring any other
benefits of the CAP.

For recommendation 2, we acknowledge that during our review period, OLMS was
developing and currently testing, two risk-based strategies to identify unions with the
most significant LMRDA violations. Once the strategies are completely tested and
OLMS implements at least one, we believe our recommendation may be satisfied.

We revised recommendation 3 to clarify that we were not recommending OLMS revisit
all unions with recording keeping violations. Rather, we believe OLMS should put a
process in place that will provide OLMS more assurances that unions took actions to
address the problems. This could include requiring unions to provide documentation for
how they corrected identified weaknesses, sending in copies of certain records over a
period of time, or providing some other method of documented assurances to OLMS
that changes were made. The current lack of follow-up does not provide any
assurances of corrections.


RESULTS AND FINDINGS

Objective 1 — Has OLMS evaluated the effectiveness of its CAP and its impact on
              safeguarding union assets?

      Developing a measure that incorporates all outcomes will result in OLMS better
      evaluating CAP effectiveness

Finding 1 — OLMS Performance Measurement Process Did Not Evaluate Overall
             CAP Effectiveness

The OLMS performance measurement process did not evaluate the effectiveness of the
CAP. OLMS used an output measure that only measured the percentage of CAP audits


                                                               OLMS Compliance Audit Program
                                             4                    Report No. 09-12-001-04-421
                                            U.S. Department of Labor – Office of Inspector General


that identified a potential criminal violation. This did not measure the CAP program’s
effectiveness in safeguarding union assets. Specifically, it reports internal activity
managed by OLMS but does not measure program outcomes against achieving the
intended result of the CAP program. The measure does not measure changes in
program conditions that OLMS is trying to influence. Further, this measure did not
recognize non-criminal outcomes, such as insufficient bonding of union assets, deficient
filing, failure to file, or failure to maintain records. As a result, OLMS did not determine
overall if its CAP was effective in detecting criminal and civil violations of the LMRDA to
improve safeguards of union assets.

The Government Performance and Results Act (GPRA) of 1993 guides Federal
performance measurement by systematically holding Federal agencies accountable for
achieving program results. GPRA stresses the establishment of goals and the
measurement of program outcomes as a means of effective program management.
OMB Circular A-11, which implements GPRA, defines outcomes as “The desired results
of a program.” To measure program outcomes, OMB Circular A-11 defines an outcome
measure as:

       A type of measure that indicates progress against achieving the intended
       result of a program and indicates changes in conditions that the
       government is trying to influence.

OMB Circular A-11 stresses the importance and benefits of measuring program
outcomes versus program outputs, which are the products of a program or the internal
activity of an agency.

As required by GPRA, OLMS established performance goals and measures for its
programs. OLMS established one program measurement for the CAP. The CAP
performance measure was the percent of CAP audits that identified a potential criminal
violation. Each year OLMS established a goal in terms of the percentage of CAP audits
that would identify a potential criminal violation. OLMS then monitored the CAP in terms
of this percentage and reported the results as part of its GPRA reporting.

For example, in FY 2008, OLMS established a baseline and targets of the percentage of
CAP audits that identified a potential criminal violation. The table below shows the
baseline, fiscal year targets, and percentage of audits that identified a potential criminal
violation for FY 2008 through 2011.

                          OLMS CAP GPRA Goals and Results

                           FY 2008       FY 2009       FY 2010        FY 2011
               Target       Base          12.0%          12.5%          13.0%
               Result       11.5%         12.1%          14.6%          14.9%

According to OLMS officials, they established this measure and the annual goals to
increase union financial integrity, democracy, and labor-management transparency.

                                                                 OLMS Compliance Audit Program
                                             5                      Report No. 09-12-001-04-421
                                                         U.S. Department of Labor – Office of Inspector General


However, this measure does not assess whether union financial integrity, democracy or
transparency have actually increased. It measures OLMS activity rather than its
success in safeguarding union assets through criminal indictments and convictions.

In addition, according to OLMS, the CAP objective is to uncover both criminal
and non-criminal violations of the LMRDA. Specifically, according to the OLMS
Handbook, OLMS designed CAP to verify LMRDA compliance and provide
compliance assistance to help unions meet statutory requirements. The current
performance measure, however, only relates to potential criminal LMRDA
violations. It does not measure any impact of OLMS’ non-criminal activities in
CAP.

As a result, most CAP efforts are not included in GPRA measurement. The large
majority of CAP audits and related resources identify non-criminal LMRDA violations.
For example, during our audit period, OLMS closed 5132 CAP audits covering 513
unions and over $324 million in receipts. Of these:

    	 392, or 76 percent, found a variety of non-criminal violations, such as insufficient
       bonding of union assets, deficient filing, failure to file, and failure to maintain
       records.

    	 81, or 16 percent, found violations that resulted in a criminal case.

    	 40, or 8 percent, found no violations.

The following chart shows the distribution of CAP audit outcomes:

                           CAP Outcomes and Union Receipts
                            (513 CAPs During Audit Period Totaling $324,012,162 in receipts)

                                                                             Crim inal Case
                                                                                Opened
                                                                                 - 81 -
                                                                              $60,823,074



                                                                                   No Violations
                                                                                       - 40 -
               Non - Crim inal                                                      $65,583,451
                 Violations
                   - 392 -
                $197,605,637




2
  513 represents the total number of audits closed during our audit period. This includes the 428 audits in our sample
universe plus 81 audits that resulted in a criminal case and 4 audits we eliminated because they did not file a financial
report and had zero dollars in receipts.



                                                                                  OLMS Compliance Audit Program
                                                           6                         Report No. 09-12-001-04-421
                                           U.S. Department of Labor – Office of Inspector General


As this chart shows, the majority of CAP results are non-criminal, but OLMS does not
measure any non-criminal results from the CAP.

Overall, OLMS did not determine if its CAP was effective in improving safeguarding of
union assets. The current measure only identifies whether the CAP is increasing or
decreasing referrals for criminal cases, not whether the CAP is actually affecting
financial integrity in unions. Further, the current measure only reflects referrals for
criminal investigation while the majority of CAP resources identify non-criminal results.
OLMS needs to create a performance measure that measures actual CAP outcomes
and incorporates both criminal and non-criminal outcomes.


Objective 2 — Has OLMS selected unions for audit using the most effective
              strategies?

      Implementing a risk based process to identify effective strategies will result in
      better selection of those unions with the most significant LMRDA violations

Finding 2 — OLMS Does Not Have A Process to Identify Effective Strategies For
            Selecting Those Unions With The Most Significant LMRDA Violations

OLMS could not demonstrate it was using the most effective risk-based strategies to
identify unions with the most significant LMRDA violations. OLMS did not have a
process to correlate CAP strategies for selecting unions for audit with CAP outcomes. In
addition, OLMS had not determined which LMRDA violations were the most significant
in terms of protecting union financial integrity. As a result, OLMS could not demonstrate
it was selecting unions for audit that had the greatest risk for LMRDA violations that
affected the safeguarding of union assets.
OLMS has a large universe of unions to oversee. In FY 2011, there were about 25,000
unions submitting annual reports to OLMS. These 25,000 unions consisted of about
5,300 large unions (21 percent) with assets over $250,000, 12,100 medium-sized
unions (48 percent) with assets between $10,000 and $250,000, and 7,700 small
unions (31 percent) with assets less than $10,000. In our audit period, OLMS closed
CAP audits on 124 large unions (29 percent), 272 medium-sized unions (64 percent),
and 32 small unions (7 percent). While OLMS used many strategies, including size of
the union, to target unions for CAP audits, it could not demonstrate that it was using the
most effective strategies to identify the most significant violations.

In the FY 2011 to 2016 strategic plan, OLMS stated its goal was to use its resources
more efficiently to deter and detect wrongdoing by becoming more effective at selecting
unions for audit. To do this, OLMS delegated the responsibility for selecting unions for
audit to the District Office level. The OLMS National Office's role in selecting unions for
audit was to provide general guidance on how the District Offices were to select unions
for CAP audits. They did this through the CAP Handbook, annual Program Operations
Plan guidance, and ongoing guidance to the District Offices. Additionally, they facilitated
the sharing of union selection ideas across the organization.


                                                               OLMS Compliance Audit Program
                                             7                    Report No. 09-12-001-04-421
                                                       U.S. Department of Labor – Office of Inspector General


While the OLMS National Office provided guidance and facilitated idea sharing, they did
not have a mechanism to analyze CAP results based on risk and determine the best
union selection strategies that produced the most significant results. Prior to
June 2011, OLMS recorded the union selection reasons in a case data system that did
not capture the information in a useable format. For each CAP case, District Offices
entered the union selection strategy in a narrative, non-standard format. This format
made any analysis to identify the most effective union selection strategies difficult. For
example, one case in our sample had the following narrative for case selection:

        Treasurer … claims to have mailed (via the US Postal Service) the
        LM-33 for FYE 06/30/2009 to OLMS on no less than four occasions
        since December 11, 2009 and to have faxed it once. Despite …
        claims, OLMS has not received the required delinquent report. Due
        to an expressed concern from … current President regarding
        current recordkeeping and filing issues, a CAP is being opened with
        the cooperation of the current officers. There is no known
        embezzlement of funds at this time.

This narrative format did not allow OLMS National Office or its District Offices to easily 

extract CAP case selection strategies and correlate CAP case results. 

Further, the District Offices did not have guidance to determine which LMRDA violations

were significant in relation to safeguarding union assets. For example, there was no 

guidance as to whether a reporting violation was as significant as a bonding violation. 

Overall, there was no means to correlate strategy used to the significance of the results. 


In 2009, OLMS engaged a consultant to measure CAP predications against one 

outcome – fraud. The consultant performed extensive analysis and correlated CAP 

selection strategies with fraud occurrences. However, there were no indications that 

OLMS used the results of this analysis in its strategies or in selecting unions for audit. 


In our reviews of District Offices, we found that each District had developed its own 

strategies for selecting cases. District Offices used a variety of strategies to select 

unions for audit: union member complaints, delinquent and deficient reports, selected 

industries, etc. For example, one district office used lack of prior audit coverage as a 

targeting strategy and based over 50 percent of its CAP caseload on this strategy. In 

comparison, another District did not use this strategy at all. There was no empirical data 

to support either approach or to evaluate the significance of the outcomes. While these 

differing approaches may have been appropriate, OLMS did not have any empirical 

data to determine whether they were effective identifying unions with high risk for the 

most significant LMRDA violations. 



3
  The LM reports are reports that unions file annually with OLMS, which shows their financial status. The type of
LM report filed depends upon the size of the union. LM-2 filers have annual receipts of $250,000 or more, LM-3
filers have annual receipts of $10,000 or more but less than $250,000, and LM-4 filers have annual receipts under
$10,000.


                                                                              OLMS Compliance Audit Program
                                                         8                       Report No. 09-12-001-04-421
                                                             U.S. Department of Labor – Office of Inspector General


In a 2010 proposal recognizing this problem, OLMS stated:

                     For CAP cases, there is a wide variance in the level of detail
                     entered in the predication4 field, ranging from long, detailed
                     narratives to "district director discretion." This non-uniformity makes
                     it impossible to correlate CAP predications to fallout rates.

In response to the need for better data related to predications and results, OLMS has
started to develop a mechanism that it believes will identify which union selection
strategies result in the best performance outcomes. In June 2011, OLMS changed their
case data system to require District Offices to select one of 18 specific codes to identify
the reason(s) used to open a CAP audit. OLMS also instructed District Offices to code
retroactively all CAP audits opened since October 1, 2010, with one of the 18 codes for
selecting a union for audit. According to OLMS officials, these codes will enable them to
identify those union selection strategies that produce the greatest number of potential
criminal violations.

However, OLMS officials stated that they had not yet performed analysis on the new
system to determine which union selection strategies are most effective. Further, the
proposal does not include a process for OLMS to evaluate the CAP results in terms of
the significance of the results and correlation to the 18 codes. In addition, the proposal
indicates that OLMS may only evaluate CAP results in terms of potential criminal
activity.
We believe OLMS needs to include non-criminal violations in its risk analysis and
determine which violations are the most significant in terms of safeguarding union
assets. OLMS could then correlate CAP predications to all violations based on risk and
impact. Without this additional analysis and determination, OLMS has not been able to
determine which strategies are most effective in identifying high-risk unions with the
most significant violations of LMRDA.

With budget and resource constraints in recent years, this may become a critical issue.
For FY 2011, OLMS reported that it conducted 461 CAP audits, a reduction from the
average of 719 in the previous 4 years. If OLMS continues to conduct fewer CAP audits,
it is imperative that they select unions for audit with the most significant violations of
LMRDA. This is increasingly important when considering that OLMS oversees roughly
25,000 unions. Each CAP audit is of critical importance in providing safeguards over the
roughly $19 billion in union funds. OLMS should ensure that its new process is risk-
based and should complete and utilize it to evaluate and identify which union selection
strategies result in the best performance outcomes.

Objective 3 — Has OLMS ensured unions corrected violations of LMRDA?

          Developing a process to verify unions correct financial controls over
          recordkeeping will result in improving the safeguarding of union assets
4
    Predication is a term for the reason to select a union for audit.


                                                                                 OLMS Compliance Audit Program
                                                               9                    Report No. 09-12-001-04-421
                                          U.S. Department of Labor – Office of Inspector General




Finding 3 — OLMS Does Not Have A Process That Verifies Unions Correct
            Financial Controls Over Recordkeeping

OLMS did not always ensure correction of financial control weaknesses that allowed
union recordkeeping violations. While OLMS required corrective action for violations in
other areas, such as bonding and financial reporting, they did not follow up with unions
to ensure they corrected control weaknesses related to recordkeeping to prevent
violations from reoccurring. OLMS officials stated that they did not have enough
resources to follow up with unions on recordkeeping violations. However, recordkeeping
violations represented financial control weaknesses that, left uncorrected, could put
union funds at risk.

OLMS regulations require unions to provide internal controls over union funds.
Specifically, 29 Code of Federal Regulations (CFR) Title IV, Section 458.32, states:

      Every labor organization shall provide accounting and financial controls
      necessary to assure the maintenance of fiscal integrity.

For many violations that OLMS uncovered in CAP audits, such as inadequate bonding,
and delinquent and deficient filing, OLMS required the unions to provide documentation
that verified that the union corrected the violations. However, for recordkeeping
violations, OLMS accepted union assurances that the union would correct them in the
future. This action did not provide reasonable assurance that unions implemented
controls that improved recordkeeping.

Recordkeeping violations were the most common type of violation identified by CAP
audits. Examples included:

   	 A union did not retain sufficient documentation or descriptive information for
      $13,426 in reimbursed expenses and $40,797 in debit card transactions incurred
      by former secretary-treasurer.

   	 A union did not record in its receipts records the source or purpose of at least
      $8,882 in income received.

   	 A union did not retain sufficient documentation for approximately $6,252 in debit
      card transactions and expenses and did not require officers and employees to
      submit itemized receipts for meal expenses totaling at least $3,927.

   	 A union did not retain bank statements for the period April 1, 2007, to 

      March 31, 2009. 


We found that 55 of the 99 CAP audits in our sample identified 140 recordkeeping
violations. In all 55 audits, OLMS accepted union assurances recordkeeping violations
would not reoccur but did not follow up to ensure the unions improved their financial

                                                              OLMS Compliance Audit Program
                                           10                    Report No. 09-12-001-04-421
                                          U.S. Department of Labor – Office of Inspector General


controls to prevent the identified recordkeeping violations. These 55 unions had receipts
of approximately $24.5 million, or 37 percent of the $66.4 million in our sample.

Only by follow-up action, will OLMS know if unions implement proper financial controls
to correct and prevent recordkeeping violations. Without such actions, those unions’
funds are potentially at risk.

RECOMMENDATIONS

We recommend that the OLMS Director:

   1. Develop performance measures that evaluate the effectiveness of the CAP in
      safeguarding union assets by verifying LMRDA compliance.

   2. Implement a risk-based process that will define the most significant LMRDA
      violations and use strategies to direct OLMS CAP resources to unions with the
      most significant LMRDA violations.

   3. Develop a process that documents unions correct financial controls over 

      recordkeeping. 


We appreciate the cooperation and courtesies that OLMS personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
for Audit




                                                              OLMS Compliance Audit Program
                                           11                    Report No. 09-12-001-04-421
               U.S. Department of Labor – Office of Inspector General




Appendices 





                                   OLMS Compliance Audit Program
                12                    Report No. 09-12-001-04-421
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                 OLMS Compliance Audit Program
              13                    Report No. 09-12-001-04-421
                                                         U.S. Department of Labor – Office of Inspector General


                                                                                                      Appendix A
Background

OLMS administers and enforces provisions of LMRDA. OLMS also administers
provisions of the CSRA relating to conduct of Federal employee organizations, which
are comparable to LMRDA requirements. These laws promote democracy and financial
responsibility in private and public sector labor unions. In FY 2011, OLMS received
$41.3 million to oversee about 25,000 national and local unions reporting receipts of
approximately $19 billion.

OLMS ensures compliance with the provisions of the LMRDA and CSRA in four ways:

        Public Disclosure of Reports
        Compliance Audits
        Investigations
        Education and Compliance Assistance

As part of its oversight of union financial responsibility, OLMS conducts audits of unions
covered by the LMRDA through its CAP. OLMS designed its compliance audits to verify
LMRDA compliance, investigate potential violations of the law, and provide compliance
assistance to help unions meet statutory requirements. For each CAP audit, OLMS
sends a closing letter to the union describing the reporting, recordkeeping, and internal
control problems identified during the audit. The closing letters do not purport to be an
exhaustive list of all possible problem areas since the audits are limited in scope.
OLMS conducts audits of local unions and intermediate bodies under the CAP using
investigators in 20 OLMS District Offices throughout the country.
OLMS total budget authority for FY 2009 through FY 2011 was as follows:

         FY 2009 – $45,726,000
         FY 2010 – $41,367,000
         FY 2011 – $41,367,000

For the same period, OLMS conducted the following number of CAP audits:

         FY 2009 – 746 cases
         FY 2010 – 541 cases
         FY 2011 – 461 cases

For the period of April 1, 2010, through March 31, 2011, OLMS reported 4325 non-
embezzlement audits under CAP, covering unions with approximately $263 million in
receipts.


5
 This includes the 428 audits in our sample universe and 4 audits that did not file a financial report and had zero
dollars in receipts.


                                                                                 OLMS Compliance Audit Program
                                                          14                        Report No. 09-12-001-04-421
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                 OLMS Compliance Audit Program
              15                    Report No. 09-12-001-04-421
                                          U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

To determine if the CAP was effective in verifying LMRDA compliance, OIG’s audit
objectives were to answer the following questions:

Has OLMS:

   1. Evaluated the effectiveness of its CAP and its impact on safeguarding union
      assets?
   2. Selected unions for audit using the most effective strategies?
   3. Ensured unions corrected violations of LMRDA?


Scope

Our audit work covered compliance audits that OLMS closed from April 1, 2010, through
March 31, 2011. We reviewed and analyzed the LMRDA, CSRA, and applicable OLMS
regulations, policies, and procedures.

There were 513 CAP audits closed during the audit period. The 513 audits covered
$324,012,162 of union receipts. To develop our audit sample, we removed all audits
that resulted in a criminal case and eliminated four audits because the unions involved
had not filed a financial report and had zero dollars in receipts. The remaining 428
audits represented $263,189,088 of union receipts.

We reviewed and analyzed a statistical sample of 99 of the 428 CAP audits. These 99
audits represented $66,418,875 of union receipts.

We conducted fieldwork at the OLMS National Office in Washington, DC and eight
District Offices: Boston, Pittsburgh, Chicago, Cincinnati, Atlanta, Washington, DC, Los
Angeles, and Seattle.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Methodology

In planning and performing our audit, we considered OLMS’ internal controls that were
relevant to our audit objectives. We confirmed our understanding of these controls

                                                              OLMS Compliance Audit Program
                                           16                    Report No. 09-12-001-04-421
                                            U.S. Department of Labor – Office of Inspector General


through interviews and reviewing policies and procedures. Our consideration of internal
controls relevant to our audit objective would not necessarily disclose all matters that
might be significant deficiencies. Because of inherent limitations in internal controls,
misstatements or noncompliance may nevertheless occur and not be detected.

We reviewed and analyzed the LMRDA, CSRA, federal regulations and other criteria
related to our audit objectives.

Objective 1 - Has OLMS evaluated the effectiveness of its CAP and its impact on
safeguarding union fund assets?

For this objective, we interviewed OLMS National Office staff to determine if they
evaluated the effectiveness of the CAP program. We reviewed the OLMS GPRA
performance measure process and determined how OLMS calculated the percentage of
criminal cases that resulted from CAP audits. We also reviewed the outcomes of all 513
CAP audits initiated during the audit period to determine the outcomes for performance
measurement.

Objective 2 – Has OLMS selected unions for audit using the most effective
strategies?

For this objective, we interviewed staff at the National Office about the strategies used
to select unions for compliance audits and how they identified the most effective
strategies. We also interviewed the District Directors at each of the eight sites we visited
about the strategies they use to select unions for audits. We also reviewed OLMS
policies and procedures related to union selection strategies and reviewed OLMS’
proposal to develop a new process to track the effectiveness of their union selection
strategies.

Objective 3 – Has OLMS ensured that unions corrected LMRDA recordkeeping
violations?

For this objective, we interviewed OLMS staff at the National Office and eight District
Offices about the process for correcting violations. We reviewed policies and
procedures that cover violation resolution. We analyzed a sample of 99 audits from
across the 8 District Offices to identify the different types of violations (reporting,
recordkeeping, and other) and what actions OLMS took to resolve them.

Data Reliability

In planning and performing the audit, we relied on computer-generated data obtained
from OLMS. OLMS provided us with a data file of audits that OLMS closed from
April 1, 2010, through March 31, 2011. This data file, which OLMS generated from its
Case Data System (CDS), contained 513 records of audits that OLMS closed during our
audit period.



                                                                OLMS Compliance Audit Program
                                             17                    Report No. 09-12-001-04-421
                                           U.S. Department of Labor – Office of Inspector General


For data completeness, we compared the number of CAP audits closed in the FY 2010
OLMS Annual Report to the number of CAP audits closed in the data file. For FY 2011,
we compared OLMS’ Performance Review & Analysis case inventory for the first two
quarters of FY 2011 to the data file received for all audits closed for the same period.

Additionally, we compared the information OLMS provided us from the CDS with the
information in the CAP case files to assess the data’s authenticity and we tested for
data accuracy by checking the CDS data for missing data, inconsistent data and for
dates outside of our audit period. We determined the data to be sufficient and
appropriate for the purpose of our audit.

Sampling

To determine CAP audits closed, we obtained a data file, reviewed OLMS’ CDS system
database and determined that 513 of the audits were within our audit period of
April 1, 2010, through March 31, 2011. We then eliminated 81 CAP audits that resulted
in criminal cases and 4 audits that the database listed as not having filed an annual
report and having zero dollars in receipts. This resulted in a universe of 428 CAP audits
assigned to 20 District Offices in 4 regions.

We designed a 2-stage stratified cluster random sampling plan. In the first stage, we
stratified the District Offices into four different strata and we randomly sampled 8 out of
20 District Offices. In the second stage, we randomly sampled 99 CAP audits from the 8
District Offices

Criteria

      Labor-Management Reporting and Disclosure Act of 1959
      Civil Service Reform Act of 1978
      29 CFR Title IV
      Government Performance Results Act of 1993
      U. S. Department of Labor Strategic Plan Fiscal Years 2011 to FY 2016
      OMB Circular A-11




                                                               OLMS Compliance Audit Program
                                            18                    Report No. 09-12-001-04-421
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                 OLMS Compliance Audit Program
              19                    Report No. 09-12-001-04-421
                                      U.S. Department of Labor – Office of Inspector General


                                                                             Appendix C
Acronyms and Abbreviations

CAP             Compliance Audit Program

CDS             Case Data System

CFR             Code of Federal Regulations

CSRA            Civil Service Reform Act of 1978

DOL             Department of Labor

FY              Fiscal Year

GPRA            Government Performance and Results Act of 1993

LMRDA           Labor-Management Reporting and Disclosure Act of 1959

OIG             Office of Inspector General

OLMS            Office of Labor Management Standards

OMB             Office of Management and Budget

POP             Program Operations Plan




                                                          OLMS Compliance Audit Program
                                       20                    Report No. 09-12-001-04-421
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                 OLMS Compliance Audit Program
              21                    Report No. 09-12-001-04-421
                                U.S. Department of Labor – Office of Inspector General


                                                                       Appendix D
OLMS Response to Draft Report




                                                    OLMS Compliance Audit Program
                                 22                    Report No. 09-12-001-04-421
U.S. Department of Labor – Office of Inspector General




                    OLMS Compliance Audit Program
 23                    Report No. 09-12-001-04-421
U.S. Department of Labor – Office of Inspector General




                    OLMS Compliance Audit Program
 24                    Report No. 09-12-001-04-421
U.S. Department of Labor – Office of Inspector General




                    OLMS Compliance Audit Program
 25                    Report No. 09-12-001-04-421
U.S. Department of Labor – Office of Inspector General




                    OLMS Compliance Audit Program
 26                    Report No. 09-12-001-04-421
U.S. Department of Labor – Office of Inspector General




                    OLMS Compliance Audit Program
 27                    Report No. 09-12-001-04-421
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                 OLMS Compliance Audit Program
              28                    Report No. 09-12-001-04-421
                                         U.S. Department of Labor – Office of Inspector General


                                                                                Appendix E
Acknowledgements

Key contributors to this report were Ralph McClane, Audit Director, Mary Stepney, Audit
Manager, Marsha Secuskie, Samantha Cash, Aaron Talbert, Enrique Lozano, and Mary
Lou Casazza.




                                                             OLMS Compliance Audit Program
                                          29                    Report No. 09-12-001-04-421
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                 OLMS Compliance Audit Program
              30                    Report No. 09-12-001-04-421
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
